U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

December 8, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Standing Akimbo LLC et al. v. United States of America,
S.Ct. No. 20-645

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November 6,
2020, and placed on the docket on November 12, 2020. The government’s response is due on
December 14, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including January 13, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-0645
STANDING AKIMBO LLC, ET AL.
USA

JAMES DAVID THORBURN
THORBURN LAW GROUP LLC
5460 SOUTH QUEBEC ST.
SUITE 310
GREENWOOD VILLAGE, CO 80111
303-646-3482
JTHORBURN@THORBURNWALKER.COM

